HHS/OIG-Audit-"Review of Rural Health Clinic Medicare Claims for Calendar Years 1997,1998, and 1999," (A-07-00-00108)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Rural Health Clinic Medicare Claims for Calendar Years 1997,1998,
and 1999," (A-07-00-00108)
October 9, 2001
Complete
Text of Report is available in PDF format (926 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out potential Medicare overpayments totaling approximately
$2.8 million were paid to rural health clinics (RHC) in 13 States for Calendar
Years 1997 through 1999. The potential improper payments were composed of $2.6
million in Part B billings for individual services that were covered and paid
on the basis of an all-inclusive rate per visit, and $0.2 million in duplicate
RHC claims for services provided to the same beneficiaries, for the same dates
of service, and with the same diagnoses. In addition to financial adjustments,
we are recommending that the Centers for Medicare and Medicaid Services (CMS)
design and implement Common Working File edits to detect claims which contain
Part B services that were paid under the all-inclusive rate. We are also recommending
that CMS require the fiscal intermediaries to develop effective procedures and
computer system edits to detect the submission of duplicate RHC claims.
The CMS agreed with all of our recommendations except for designing and implementing
CWF edits. The CMS believed that this recommendation would result in additional
administrative burdens. However, we believe that CWF edits would be the most
effective way to correct problems found during the audit, without placing additional
administrative burdens on RHCs.